Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Elgin, Illinois Police Department
GR-50-00-023June 14, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Elgin, Illinois Police Department (Elgin PD).  The purpose of the grants is to enhance community policing.  The Elgin PD was awarded a total of $1,788,690 to hire 19 new police officers and redeploy the equivalent of 4.9 existing full-time officers from administrative duties to community policing.
	
	We reviewed the Elgin PD's compliance with eight essential grant conditions.  We found the grantee's budgeting practices, hiring of officers, local matching funds, retention of officer positions, and community policing activities to be acceptable.  However, we found weaknesses in three other areas as identified below.  As a result, we identified $649,890 in dollar-related findings. 1

The grantee overstated total program costs for the initial Universal Hiring Program grant by $521,285, because it charged the grant for the salaries and benefits of officers hired before the award start date.  Of this amount, $354,949 was requested and received as the federal share, which we question as unallowable expenditures.

	The grantee was awarded $363,690 under Making Officer Redeployment Effective (MORE) to hire four civilians and redeploy 4.9 existing officers from administrative duties to community policing from July 1, 1997 through June 30, 2000.  However, the Elgin PD filled only two grant funded civilians positions on October 25, 1998 and June 14, 1999, respectively.  According to Elgin PD officials, they have been unable to obtain hiring approval from the City Council and do not intend to fill the remaining two positions.  As a result, we determined that $294,941 of the funds awarded under the MORE grant will not be expended by the grant end date and should be deobligated.

	Several status reports were inaccurate and/or untimely.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 




The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.